     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

October 13, 2011


Report Number: A-02-11-02000

Ms. Bonny Boice
Executive Vice President
The Research Foundation of the State University of New York
35 State Street
Albany, NY 12207-2826

Dear Ms. Boice:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Select Expenditures Claimed by The Research
Foundation of the State University of New York, State University of New York at Albany. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John J. Madigan, Audit Manager, at (518) 437-9390, extension 224 or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-11-02000 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                             for Audit Services



Enclosure
Page 2 – Ms. Bonny Boice


Direct Reply to HHS Action Official:

Ms. Sheila Conley
Deputy Assistant Secretary for Finance
OS/ASFR/Office of Finance
U. S. Department of Health and Human Services
Room 549D, Hubert H. Humphrey Building
200 Independence Avenue, S.W.
Washington, DC 20201

cc:
Ms. Kim Bessette
Associate Vice President, Financial Management and Budget
University at Albany

James Dias, Ph.D.
Vice President for Research
University at Albany

Ms. Emily Kunchala
Director, Internal Audit
The Research Foundation of the State University of New York
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF SELECT EXPENDITURES
    CLAIMED BY THE RESEARCH
    FOUNDATION OF THE STATE
 UNIVERSITY OF NEW YORK, STATE
UNIVERSITY OF NEW YORK AT ALBANY




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-02-11-02000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY


BACKGROUND

The State University of New York (SUNY) is the nation’s largest state university system.
SUNY has 64 educational institutions located throughout New York State, including the
University at Albany (the University).

The Research Foundation of SUNY (the Foundation), headquartered in Albany, New York, helps
SUNY acquire, administer, and manage external funds to advance research and education, and
transfer technology from SUNY campuses to the marketplace. During the period July 1, 2008,
through June 30, 2009, the Foundation claimed reimbursement for $7,668,380 of expenditures
incurred on 70 sponsored agreements with U.S. Department of Health and Human Services
component agencies.

Principles for determining the allowability of expenditures charged to sponsored agreements
with the Foundation and other educational institutions are set forth in 2 CFR pt. 220 (Office of
Management and Budget (OMB) Circular A-21, “Cost Principles for Educational Institutions”).
These cost principles apply both to direct costs—expenses incurred solely for the performance of
a particular sponsored agreement—and to facilities and administrative (F&A) costs—indirect
expenses incurred for common or joint objectives of the institution and cannot be readily and
specifically identified with a particular sponsored agreement.

OBJECTIVE

Our objective was to determine whether the Foundation claimed Federal reimbursement for
administrative, clerical, and extra service compensation expenditures as direct costs in
accordance with Federal regulations.

SUMMARY OF FINDINGS

The Foundation generally claimed Federal reimbursement for administrative, clerical, and extra
service compensation expenditures in accordance with Federal regulations. Of the 322
expenditures that we reviewed, 275 complied with Federal regulations, but 47 expenditures
totaling $82,922 did not. These unallowable expenditures occurred because the Foundation had
not established adequate controls to ensure consistent compliance with the cost principles
applicable to charges for administrative, clerical, and extra service compensation expenditures.

RECOMMENDATIONS

We recommend that the Foundation:

   •	 refund $82,922 to the Federal Government; and

   •	 establish adequate controls to ensure consistent compliance with the costs principles
      applicable to charging administrative, clerical, and extra service compensation
      expenditures to sponsored agreements.


                                                i
THE FOUNDATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Foundation partially agreed with our first
recommendation (financial disallowance), concurred with our second recommendation, and
described actions it has taken or planned to take to ensure consistent compliance with the costs
principles. Specifically, the Foundation agreed to refund $48,651($36,416 direct costs and
$12,235 related F&A costs). For the remaining costs questioned in our draft report, the
Foundation provided additional documentation under separate cover to support the allowability
of the expenditures. Based on our review of the additional documentation, we accepted some of
the costs questioned in our draft report, and revised our findings and first recommendation
accordingly.

The Foundation’s comments appear in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS 




INTRODUCTION... ................................................................................................................. 1 


         BACKGROUND ............................................................................................................. 1 

             The State University of New york ............................................................ .. ........ 1 

             The Research Foundation of the State University of New York ............... .. ........ l 

             The American Recovery and Reinvestment Act of2009 .................................... 1 

             Cost Principles .............................................................................. .... ................... 1 


         OBJECTIVE, SCOPE, AND METHODOLOGY ................ ........ .. .............. ........ .. ........2 

              Objective .............................................................................................................2 

              Scope ...................................................................................................................2 

              Methodology ........................................................ ... ..................... ... ....................2 


FINDINGS AND RECOMMENDATIONS ......................................................................... .3 


         EXPENDITURES DID NOT SOLELY BENEFIT SPONSORED AGREEMENT ..... .4 


         EXPENDITURES FOR OFFICE SUPPLIES ................................................................ .4 


         EXPENDITURES FOR PROMOTIONAL GIVEAW AY ITEMS ................................ 5 


         EXPENDITURES REQUIRED NO UNUSUAL DEGREE OF 

          CLERICAL SUPPORT ................................................................................................ 5 


         EXTRA SERVICE PERFORMED ON DUTIES NOT RELATED TO 

          THE SPONSORED AGREEMENT ............................................................................ 5 


         RECOMMENDATIONS .............................. ........ .. .............. ........ .. .............. ........ .. ........6 


         THE FOUNDATION COMMENTS ..............................................................................6 


         OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6 


 APPENDIX

         THE FOUNDATION COMMENTS




                                                                     111
                                               INTRODUCTION


BACKGROUND

The State University of New York

The State University of New York (SUNY) is the nation’s largest state university system.
SUNY has 64 educational institutions located throughout New York State, including the
University at Albany (the University).

The Research Foundation of State University of New York

The Research Foundation of SUNY (the Foundation), headquartered in Albany, New York, helps
SUNY acquire, administer, and manage external funds to advance research and education, and
transfer technology from SUNY campuses to the marketplace. During the period July 1, 2008,
through June 30, 2009, the Foundation claimed reimbursement for $7,668,380 of expenditures
incurred on 70 sponsored agreements with U.S. Department of Health and Human Services
(HHS) component agencies.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act) was
enacted on February 17, 2009. During the period February 17, 2009, through June 30, 2009, the
Foundation received $8,847,317 in total Recovery Act funding from HHS and other Federal
agencies. Of this amount, the University received $415,908 of Recovery Act funds awarded by
HHS.

Cost Principles

Principles for determining the allowability of expenditures charged to sponsored agreements
with the Foundation and other educational institutions are set forth in 2 CFR pt. 220 (Office of
Management and Budget (OMB) Circular A-21, “Cost Principles for Educational Institutions”).
These cost principles apply both to direct costs—expenses incurred solely for the performance of
a particular sponsored agreement—and to facilities and administrative (F&A) costs—indirect
expenses incurred for common or joint objectives of the institution and cannot be readily and
specifically identified with a particular sponsored agreements. 1

In accordance with OMB Circular A-21, Att. A § C.4.d.1, each college and university is
responsible for ensuring that direct and F&A costs charged to federally sponsored agreements
are allowable under these cost principles.



1
  Educational institutions are reimbursed for F&A costs through rates negotiated with the Federal Government.
Institutions with significant numbers of federally funded agreements frequently have multiple F&A rates applicable
to different functions, such as research, training, or other institutional activities. The F&A rates are made up of two
components—facilities and administrative.


                                                           1

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether the Foundation claimed Federal reimbursement for
administrative, clerical, and extra service compensation expenditures as direct costs in
accordance with Federal regulations.

Scope

Our audit covered administrative, clerical, and extra service compensation expenditures claimed
for reimbursement from July 1, 2008, through June 30, 2009. The audit was limited to
sponsored agreements between the Foundation and the following HHS component agencies:
National Institutes of Health, Centers for Disease Control and Prevention, Administration for
Children and Families, Health Resources and Services Administration, and Substance Abuse
and Mental Health Services Administration. We did not evaluate expenditures related to the
Foundation’s agreements with other Federal agencies.

We did not perform an overall assessment of the Foundation’s internal control structure.
Rather, we reviewed only the internal controls related to our audit objective, including
an assessment of the Foundation’s policies and procedures related to the identification
of and accounting for administrative, clerical, and extra service compensation
expenditures.

We conducted our field work at the Foundation’s offices located on the University’s campus in
Albany, New York between November 2010 and March 2011.

Methodology

To accomplish our audit objective, we:

    •	 held discussions with Foundation officials to obtain an understanding of the University’s
       procedures for claiming administrative, clerical and extra service compensation
       expenditures to sponsored agreements;

    •	 reviewed the Foundation’s policies and procedures related to the identification of and
       accounting for administrative, clerical, and extra service compensation expenditures;

    •	 reviewed the Foundation’s approved Cost Accounting Standards Board Disclosure
       Statement (DS-2); 2




2
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a DS-2. The University’s DS-2 was submitted to the HHS Division
of Cost Allocation (DCA).


                                                        2

    •	 obtained a database of 4,049 expenditures, totaling $7,668,380, that the Foundation
       charged to 70 HHS-sponsored agreements during the period July 1, 2008, through
       June 30, 2009;

    •	 identified in this database 322 administrative, clerical, and extra service compensation
       expenditures, totaling $1,241,884; 3

    •	 identified sponsored agreements that met the definition of “major project;” 4

    •	 contacted the awarding agencies to discuss the allowability of selected expenditures
       charged to the associated sponsored agreements;

    •	 Interviewed University clerical staff to gain an understanding of their services provided
       directly to sponsored agreements; and

    •	 computed the F&A costs related to the unallowable expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusion
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The Foundation generally claimed Federal reimbursement for administrative, clerical, and extra
service compensation expenditures in accordance with Federal regulations. Of the 322
expenditures that we reviewed, 275 complied with Federal regulations, but 47 expenditures
totaling $82,922 did not. The following table (next page) summarizes the 47 unallowable
expenditures claimed by the Foundation.




3
 The 322 expenditures were composed of 181 clerical transactions ($1,105,395), 137 administrative transactions
($125,941), and 4 extra service compensation transactions (totaling $10,548).
4
 “Major project” is defined as a sponsored agreement that requires an extensive amount of administrative or clerical
support, which is significantly greater than the routine level of such services provided by academic departments
(OMB Circular A-21, Att. A, § F.6.b.2).


                                                         3

                                                                                         Number of Unallowable
                                                                                        Unallowable  Amount
                         Type of Deficiency                                             Transactions Claimed 5
Expenditures did not solely benefit sponsored agreement                                     30          $59,504
Expenditures for office supplies                                                            11            4,139
Expenditures for promotional giveaway items                                                  2            3,350
Expenditures required no unusual degree of clerical support                                  3            5,598
Extra service performed on duties not related to sponsored agreement                         1           10,331
Total                                                                                       47          $82,922

  These unallowable expenditures occurred because the Foundation had not established adequate
  controls to ensure consistent compliance with the cost principles applicable to charges for
  administrative, clerical, and extra service compensation expenditures.

  EXPENDITURES DID NOT SOLELY BENEFIT SPONSORED AGREEMENT

  Pursuant to OMB Circular A-21, Att. A, § C.4.a., a cost is allocable to a sponsored agreement if
  it is incurred solely to advance the work under the sponsored agreement and benefits both the
  sponsored agreement and other work of the institution, in proportions that can be approximated
  through use of reasonable methods.

  The Foundation could not document that $45,089 in administrative expenditures for information
  technology supplies (e.g., computers, monitors, printers, warranties, and digital cameras) were
  used solely to advance the work under the sponsored agreements. For example, we found that
  the Foundation purchased $23,335 of computers during the last week of—or after the end of—
  the associated project period. These purchases could not solely benefit the research project. The
  Foundation also improperly claimed $14,415 for F&A costs applicable to these expenditures.
  Therefore, the total unallowable amount claimed was $59,504.

  EXPENDITURES FOR OFFICE SUPPLIES

  Pursuant to OMB Circular A-21, Att. A, § F.6.b.(3), items such as office supplies, postage, local
  telephone costs, and memberships shall normally be treated as F&A costs.

  The Foundation improperly claimed $3,370 as direct administrative expenditures for office
  supplies (e.g., toner, paper, binders, binder clips, tape, folders, and pens). Pursuant to Federal
  regulations, these supplies should have been treated as F&A expenditures. The Foundation also
  improperly claimed $769 for F&A costs applicable to these expenditures. Therefore, the total
  unallowable amount claimed was $4,139.

  5
    Total fringe benefit costs were calculated using the fringe benefit rate (37.5 percent) negotiated between the
  Foundation and DCA. The Foundation subjectively used an F&A rate that was equal to or lower than the DCA
  negotiated rate (51.5 percent) on HHS awards. In calculating the unallowable amount, we applied the fringe benefit
  rate to clerical salaries and extra service compensation, and the appropriate F&A rate to administrative costs, clerical
  salaries, extra service compensation, and related fringe benefits.


                                                             4

EXPENDITURES FOR PROMOTIONAL GIVEAWAY ITEMS

Pursuant to OMB Circular A-21, Att. A, § J.1.f.(3), costs of promotional items and
memorabilia—including models, gifts, and souvenirs—are unallowable.

The Foundation improperly claimed $3,350 as direct administrative expenditures for flash drives
that the Foundation used as a giveaway item at a conference. The sponsored agreement
proposals, award documents, and other materials in the Foundation’s sponsored agreement files
contained no evidence indicating that these purchases provided direct benefit to the sponsored
agreement. The Foundation did not have F&A costs associated with these expenditures.
Therefore, the total unallowable amount claimed was $3,350.

EXPENDITURES REQUIRED NO UNUSUAL DEGREE OF CLERICAL SUPPORT

Pursuant to OMB Circular A-21, Att. A, § F.6.b.2:

       “… salaries of administrative and clerical staff should normally be treated as
       F&A costs. Direct charging of these costs may be appropriate where a ‘major
       project’ or activity explicitly budgets for administrative or clerical services
       and individuals involved can be specifically identified with the sponsored
       agreement or activity. ‘Major project’ is defined as a sponsored agreement
       that requires an extensive amount of administrative or clerical support, which
       is significantly greater than the routine level of such services provided by
       academic departments.”

The Foundation improperly claimed $3,246 as direct clerical salaries. Specifically, the
Foundation provided no evidence that the nature of the work performed on the sponsored
agreements justified any unusual degree of clerical support to accomplish sponsored agreement
objectives. In addition, the Foundation could not provide documentation justifying that the
sponsored agreements met the definition of a “major project.” The Foundation also claimed
$1,217 for fringe benefits and $1,135 for F&A costs applicable to the clerical salaries.
Therefore, the total unallowable amount claimed was $5,598.

EXTRA SERVICE PERFORMED ON DUTIES NOT RELATED TO THE SPONSORED
AGREEMENT

Pursuant to OMB Circular A-21, Att. A § J.10.d, grantees shall not charge sponsored agreements
in excess of a faculty member’s base salary. In addition, the cost principles state that intra­
university consulting is a university obligation that generally requires no compensation in
addition to full-time base salary. In “unusual cases” where consultation is across departmental
lines or involves a separate or remote operation, and the work performed by the consultant is in
addition to his regular departmental load, any charges for such work representing extra
compensation above the base salary are allowable provided that such consulting arrangements
are specifically provided for in the agreement or approved in writing by the sponsoring agency.




                                                5

The Foundation improperly claimed $5,963 for extra service compensation for one employee
who performed duties not specifically provided for in the sponsored agreement or approved in
writing by the sponsoring agency. The Foundation also improperly claimed $2,236 for fringe
benefits and $2,132 for F&A costs applicable to the extra service compensation. Therefore, the
total unallowable amount claimed was $10,331.

RECOMMENDATIONS

We recommend that the Foundation:

   •	 refund $82,922 to the Federal Government; and

   •	 establish adequate controls to ensure consistent compliance with the costs principles
      applicable to charging administrative, clerical, and extra service compensation
      expenditures to sponsored agreements.

THE FOUNDATION COMMENTS

In written comments on our draft report, the Foundation partially agreed with our first
recommendation (financial disallowance), concurred with our second recommendation, and
described actions it has taken or planned to take to ensure consistent compliance with the costs
principles. Specifically, the Foundation agreed to refund $48,651($36,416 direct costs, and
$12,235 related F&A costs). For the remaining costs questioned in our draft report, the
Foundation provided additional documentation under separate cover to support the allowability
of the expenditures.

The Foundation also stated that its purchases of computers during the last week of—or after the
end of—the associated project period were allowable because HHS extended the project’s budget
period to September 2011. Therefore, according to the Foundation, the purchases were made
within the project period. The Foundation also disagreed with our finding related to its purchase
of a laptop computer and stated that the laptop was purchased for the sole use of meeting
program requirements related to specialized field training in epidemiology. Finally, the
Foundation stated that its purchases of flash drives as promotional giveaways provided a direct
benefit to the sponsored agreement because some of the flash drives contained PowerPoint
presentations and other materials made at an HHS-funded conference while other flash drives
were embossed with the University’s counseling center’s address and web site. The Foundation
stated that the purchase of the flash drives “was one component of the outreach goal described in
the approved grant application.”

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our review of the additional documentation provided by the Foundation, we accepted
some of the costs questioned in our draft report, and revised our findings and first
recommendation accordingly. However, we maintain that the Foundation’s computer purchases
during the last week of—or after the end of—the associated project did not benefit the project




                                                6

(5U79SM5750203), which ended September 29, 2008. 6 The budget period extension cited by
the Foundation related to a separate project (1U9SM05846701). Regarding its purchase of a
laptop computer, we maintain that the purchase did not solely benefit the associated project
because the laptop was assigned to a graduate assistant—not to equipment linked to the project. 7
Regarding the Foundation’s use of flash drives as promotional giveaways, we allowed the costs
associated with the flash drives used as outreach for the University’s counseling center.
However, the Foundation did not provide adequate documentation to show that the unembossed
flash drives directly benefited the project or advance the work under the sponsored agreement.

The Foundation’s comments appear in their entirety as the Appendix.




6
    After receiving the Foundation’s comments, we verified the project period with the sponsoring agency.
7
 To be allowable, the laptop should have solely benefited the project. By assigning the laptop to a graduate
assistant, the graduate assistant was able to use the laptop for non-project-related purposes.


                                                           7

APPENDIX

                                                                                                                              Page 1 of 4

                                  APPENDIX: THE FOUNDATION COMMENTS




   eo
   eo YEAIS
      YEARS       OF
                  Of
   SUPPO RTI NG
   SUPPORTING
   SUN
   SUNYY RESEA RCH
         R~S~ARC~
                        September 14, 2011
   ~
                         1\Jr. am es P. EdeJ:t
                         Mr. J ames     Eden
                        Regionallnspc<::tOr
                        Regionalln              Gen,,~1
                                     spt.'Cto r Gene           Am;!lt
                                                      ra l for A udit Services
     U
     15 SItIIISI=t
        Stall S"',I     Region II
        N..,
        N...,Y",k
-11)"'9',
<jib",!!,     y ....k
                        Jacob ]avirs  Ft:dCr:l.l Building
                              Javits F"dcnl
 MI1i!i~J,Addtrn:
 Maili~jAdJTrn:            F"deral Plaza, Room 3900
                        26 Ft:deral
             am·9
        P.O. &x9        New YoYork,  New Yo
                                 rk, Ne.w   York rk 10278
IN,,!!, NY 12201-
iM"J,      12201·

   fl
              ""00
              000'
      R4J4.7{)61
   H84J4·7061
                         RE:           R"I.>Ort Number A-02- 11 -02OOO
                                       RC:I.>On                 -02ooo
184 J4-8}51 (fax)
184}4-8J5I
                        D ear i\-\r.
                        Dear  Mr. EdeEdert:
                                        n:

                        The. purpo~c of this
                        TIle            rhis letter is to respond to                                    ~·our report
                                                                    ro the recommendations contained in your
                        number 1\-02-11  -0200 ddated
                                1\·02-11 ·0200    ated Al\Ugust
                                                          ug ust 17,2011.

                        DHHS Reco Recommendation
                                       mm e ndatio n #1:
                        DHH    S recommends
                        DI·iI·IS                  the Foundation refund $88,910 to the Federal Government.
                                 rt:commends that !he                                          G overnment.

                        Research Foundation
                                    Fo undation (RF) Response:
                        The RF
                        Tht:           not concur with this
                             RI-" does lIot                 recommendationn in the full anlO
                                                       trus recommendatio               amount..
                                                                                             um.

                        The following table identifies the questioned COSts that were identi
                                                                                         identified
                                                                                               flCd in the draft audit repon
                        by type. Of [he  total amount of the direct costs ooff $68,672, the RF disagrees with $32,256 and
                                     the IOtal
                        agrees widl $36,416.
                                    5.%,416.

                                                                                      Amount     Amount     Amount
                                                                                        .f
                                                                                         of      ofF&A     ofOited
                                                                                                           ofOirect    Direct Cost:
                         Type                                                                               COSt; RF
                                                                                       Direct                              RF

                                                                         ,;
                                                                                       C~t                 Oisqrees
                                                                                                           Disagrees
                                                                                                                         As"'''
                                                                                                                         Ac~e5

                                               ;   0.'
                                                   00'   I.. ,
                                                         I."

                                                                                       'i*
                                                                                       'l*        '~          26~
                                                                                                              ':ili:        '~
                                  ;                       ;       1I ;                  ',413       276        3,913           500
                                           ;                   ;       1I
                                  ;                           unus ual degree of
                                                              unusual                   4,463      1,135         -0-         4,463
                          1I
                        I ,,,"
                          ,,,'"                                  duties not related     8, 199
                                                                                        8,199      2,132         -0-         8,199

                                      1I                                                            ,
                                                                                             Page 2 of 4





PageZ


\Ve have provided additional documentarion to DHHS supporting the RF position on the
following guesnoncd costs:

1) Expenditures did not solely benefit sponsored agreement - $26,494
    • DHHS Position: Direct costs of $23,335 were purchased "dwmg the last week of ~ or
       after the end of - the associated project period".
    • RF Position: RF provided DHHS with a copy of the "Notice of Award" from the
       sponsor dated 8/29/08 which extended the budget period to 9/29/11. Therefore, the
       purchases are within the project period.

    •   DHHS Position: Direct cos ts of $1,290 were for information technology supplies that
        were not used solely to advance the work under th e sponsored agreement.
    •   RF Position: RF provided O HHS with documentation to indicate that the computer
        workstation was used exclusively for image acquisition and image processing and is kept
        within the laboratory in a room dedicated to microscopy and image processing, attached
        to an Olympus IX-81 microscope and is used solely to advance the work under the
        sponsored agreement.

    •   DHHS Position: Direct costs of $1 ,869 were for information technology supplies that
        were not used solely to advance the work under the sponsored agreement.
    •   RF Position: RF provided DHHS with documentation to indicate that the laptop
        computer was purchased for the sole use of meeting the program's requirements for
        provision of specialized field training in epidemiology and no other computers were
        available. Therefore, this item is used solely to advance the work under the sponsored
        agreement.

2) Expenditures for office supplies - $350
    • DHHS Position: Direct costs for office supplies should have been treated as F&A
       expenditures.
    • RF Position: RF provided DI-II-IS with documentation to show that this amount was
       already removed from the grant via a cost transfer on 2/10/09.

3) Expenditures for promotional glveaway items - $3,913
    • DHHS Position: Direct costs for flash drives did not contain evidence that these
       purchases provided a direct benefit to the sponsored agreement.
    • RF Position: RF provided DHHS with documentation to show that the flash drives in
       the amouat of $2,850 contained both PowerPoint presentations and other materials
       made at an NIH funded conference and flash drives in the amount of$1,063 were
       embossed with University at Albany Counseling Center's address and website so
       students at risk for substance abuse of suicide could readily access information provided
       by the Counseling Center. The purchase of the flash drives was one component of the
       outreach goal described in the approved grant application. Therefore, these purchases
       did provide a direct benefit to the sponsored agreement.
                                                                                    Page 3 of 4





Page 3


4) Expenditures for consulting by a University employee - $1,499
    • DHHS Position: The chief executive officer of a company hired to perform consulting
       activities was a University employee.
    • RF Position: Tne RF provided DHHS with documentation to show that this was not a
       consultant agreement but was a procurement with an independent software development
       company to crcate a computer program to computationally analyze high content data
       sets. The procurement followed standard RF procedures. T here is a faculty member
       that is one of the founders of the company that provided the computer program but he
       had no connection with the grant which funded this purchase. Therefore, these are not
       consulting services performed by a University employee.

DHHS Recommendation #2
DHHS recommends that dIe Foundation establish adequate controls to ensure consistent
compliance with the cost principles applicable to charging administrative, clerical and extra
service compensation expenclitw'es to sponsored agreements.

RF Response:
'Tne RF concurs with this recommendation and has planned or has taken the following
corrective actions:

   1. At the University at Albany, new guidance documents and procedures informing
      researchers, administrators and pre and post award offices regarding computer and office
      supply costs have been prepared and are pending final approval by the University
      executive administration. Once approved, they will be used to support federal and RF
      procedures regarding office supplies and computers. These docwnents will be
      distributed widely for use by faculty, administrators and the pre and post award offices.
      A broad training program is being formulated to be implemented in Fall 2011 for all
      departments and units on the campus.
   2. "The University at A lbany's Purchasing Office staff will be re-trained regarding the
      mo nitoring and approval of the purchase of items to insure compliance with OMB A-21
      requirements.
   3. A t the University at A lbany, a new procedure guide regarding administrative personnel
      costs and major projects has been drafted and is pending final approval by the University
      executive administration. The document also provides a decision tree to assist
      researchers in identifying those exceptional circumstances where administrative charges
      can be directly charged to grants. One approved, it will be used to support federal and
      RF policies regarding administrative and technical personnel costs. 1his document will
      be distributed widely for use by faculty, administrators and the pre and post award
      offices. A broad training program is being formulated to be implemented starting in the
      Fall 2011 for all departments and units on campus.
   4. The University at Albany p rocedure on Extra Service compensation is being reviewed
      and updated.
                                                                                      Page 4 of 4





     Page 4


      5. At the University at Albany, the campus has revised their processes for reviewing and
         approving dirccdy charged administrative costs to federally funded awards, including the
         review of the notice of award documentation, .requirement that the PI complete a form
         to justify administrative costs included in the budget for both salary and non-salary costs
         and this fonn must be reviewed and approved by the pre-award office. These foOlls, if
         approved, are provided to the respective post-award offices as verification that the
         review and approval procedure has been followed .
      6. The Research Foundation Central Office issued a guidance document in May 2011 to
         implement a more formal system-wide procedure to identify majo.r programs and
         document the determination that an award is a major program within the business
         system application.
      7. The Research Foundation Central Office has also completed an Enterprise Risk
         Assessment process to provide an integrated, continuous, and broad approach for
         assessing risk data across multiple areas of the enterprise and provides management with
         the information needed to address risks. Management provides quarterly "Risk
         Assessment and Corrective Action Plan" reports, which identify risks and how they will
         be managed. Risks are reported on in five general risk categories - entity level,
         operational, sponsored program, financial, and information technology. Information
         about this program is on the RF public web site: www.rfs uny.org

We appreciate your review of the documentation provided on the RF position on questioned
costs prior to the issuance of the final audit report. We also thank the audit staff of the Dl-II-IS
Albany office for their courtesies extended during this audit.

RespectfU)          0V'



aOiC~
Executive Vice President

c:            Kim Bessette
              Associate Vice President, Financial Management and Budget
              University at Albany

           James Dias, Ph.D.
           Vice President for Research
           University at Albany

           Emily Kunchala
           Director, Internal Audit
           The Research Foundation of SUNY
